No. 19-

 

 

IN THE

Supreme Court of the Anited States

DAVID SAMARRIPA, ET AL.,

Petitioners,
v.

GREGORY KIZZIAH, WARDEN, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,887 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 1, 2019.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
